  DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



         Management Letter for FEMA’s
    Fiscal Year 2002 Financial Statement Audit




         Office of Audits
OIG-04-03           December 2003
                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program,
operation, or function under review. The independent public accounting firm KPMG LLP
performed the audit. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and a review of applicable documents.

The recommendations herein, if any, have been developed on the basis of the best knowledge
available to KPMG and the OIG, and have been discussed in draft with those responsible
for implementation. It is my hope that this report will result in more effective, efficient, and/
or economical operations. I express my appreciation to all of those who contributed to the
preparation of this report.




Clark Kent Ervin
Acting Inspector General
                                                                                                                           Contents

Preface

Table of Contents .................................................................................................... i

Executive Summary................................................................................................1

Appendix A: FY02 Comments and Recommendations..........................................3

Appendix B: Summary status of comments reported in the FY 2001
     Management Letter .....................................................................................11

Appendix C: Analysis of Management Comments...............................................15

Appendix D: Management Comments-FAMD.....................................................17

Appendix E: Management Comments-ITSD........................................................18

Appendix F: Management Comments-OGFC ......................................................19

Appendix G: Management Comments-Region II.................................................23

Appendix H: Management Comments-Region IX ...............................................26

Appendix I: OIG contributors to this report .........................................................29

Appendix J: Report Distribution...........................................................................30




      Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit                                                   Page i
Page ii   Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit   Page 1
Page 2   Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                        APPENDIX A: FY 2002 COMMENTS AND RECOMMENDATIONS



1.    Human Resources Division (HRD)
        Based on our review of 32 items related to the Federal Employees’ Group Life Insurance (FEGLI)
        Program, we noted three instances in which the life insurance cost deducted from the employee’s
        paycheck was not supported by a SF-2817, Life Insurance Election. All eligible employees are covered
        unless they decline coverage in writing by completing the SF-2817. The SF-2817 also documents the
        amount of coverage chosen. In two of the instances, the SF-2817 showed that the employee had elected
        coverage for which the cost did not match the cost deduction from the employee’s paycheck. In the third
        instance, no SF-2817 existed in the employee’s personnel file; therefore, the life insurance cost deducted
        from the employee’s paycheck could not be verified. FEMA was unable to provide current SF-2817
        forms or other supporting documentation to support the life insurance costs deducted from these three
        employee paychecks.

        As a result of this issue, the employees’ withholdings, federal government contributions to the program,
        and payment of program benefits could be incorrect.

        The Office of Personnel Management (OPM) has overall authority and responsibility for the FEGLI
        program, and in turn, OPM has delegated authority to the individual agencies to accomplish the
        following: 1) determine the coverage eligibility of participants; 2) collect and timely remit participant
        withholdings and agency contributions in a timely manner; and 3) maintain individual participant records
        to ensure proper control of the program. In addition, the Standards for Internal Control in the Federal
        Government issued by the General Accounting Office (GAO) requires that the documentation that
        supports entity transactions and significant events should be readily available for examination.

        1.1      We recommend that HRD perform periodic checks of personnel files to ensure that the most
                 current documentation is maintained to support the employees’ FEGLI election and other benefit
                 elections.

     2. Cerro Grande Claims Administration
        The Office of Cerro Grande Fire Claims (OCGFC) Payment Approval System (PAS) serves as a workflow
        manager and payment approval processing tool for submitted fire claims. PAS allows claims reviewers
        to review claim information and authorizing officials to approve claim payments. PAS was initially
        designed as a personal computer (PC) based system. However, as the volume of claims increased, it
        was migrated to a network-based system. PAS was implemented at OCGFC in November 2000 by a
        contractor, who continues to work with OCGFC to support the system.

        There are three security access levels for PAS, as follows:

        n        Network level - requires a unique user ID and password to gain access to the PAS application.

        n        PAS Level 1 - allows the use of generic user ID and password to gain access.

        n        PAS Level 2 - requires a unique user ID and password to approve claims.




              Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit                       Page 3
APPENDIX A: FY 2002 COMMENTS AND RECOMMENDATIONS



         During the course of our testwork, we noted the following areas for improvement related to the PAS
         information security controls:

         1. At the time of our review in October 2002, 167 users had access to PAS. Of these 167 users, 138 (83
            percent) no longer needed access. This situation was caused by OCGFC not removing user access when
            personnel terminated their employment with the OCGFC. As reported in our Independent Auditor’s
            Report on FEMA’s FY 2002 Financial Statements, FEMA’s overall process for terminating users’
            system access needs improvement. Terminated employees who retain system access privileges can be
            a significant risk because they may be able to sabotage or otherwise impair agency operations or assets.
            Of the 138 users no longer requiring PAS access, 16 had the access privilege of Project Manager, which
            allowed them to approve claim payments.

         2. Access to PAS Level 1 only requires a generic user ID and password. With this generic user ID and
            password, users can view and modify claim data, although they cannot approve claims. In addition,
            PAS Level 1 users can access claims under another reviewer’s user account by selecting the reviewer’s
            name from a drop down menu. Weak user system access controls such as these increase the risk of
            unauthorized access and reduces user accountability.

         3. PAS password settings can be improved in several areas.

             a. The system does not lock out users after a certain period of inactivity.

             b. The system does not lock out users after three invalid attempts at PAS Level 2.

             c. System passwords can be four characters in length at PAS Level 2 rather than the eight characters
                required by FEMA policy.

             d. Users are not required to change their system passwords periodically.

             Although sensitive PAS processing devices are in restricted areas, which helps reduce the risk of unauthorized
             access, good system password controls still should be maintained.

         4. Standard change control documentation with appropriate management signatures does not exist
            for all PAS program changes. OCGFC officials said that program changes are approved via verbal
            communications and writing the change on a “whiteboard.” We tested five system changes made
            during FY 2002, and we were informed that three of the changes were based on verbal authorizations
            and two were written on a “whiteboard” but subsequently erased. As a result, we could not verify that
            management approved the system changes.

         5. PAS separation of duties should be strengthened. The PAS contractor continues to perform PAS
            programming functions, has access to the PAS test and production environments, has the ability to
            change data and assign security rights, and has personally submitted four Cerro Grande fire claims.
            Without appropriate separation of duties, OCGFC faces the risk of unintentional programming errors
            being entered into production, unauthorized or unpublished changes to PAS code, and entrance of
            viruses or malicious code into PAS.




Page 4                        Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                     APPENDIX A: FY 2002 COMMENTS AND RECOMMENDATIONS



      As a result of these issues, PAS is subject to additional risks of unauthorized disclosure, modification, or
      destruction of data.

      Office of Management and Budget (OMB) Circular A-130, Management of Federal Information Resources,
      defines “information technology” as any equipment or interconnected system or subsystem used by the agency
      directly or used by a contractor under a contract with the agency. In addition, OMB Circular A-130 requires
      that Federal agencies implement technical controls in accordance with relevant National Institute of Standards
      and Technology (NIST) guidance. NIST’s September 1996 Generally Accepted Principles and Practices for
      Securing Information Technology guides that agencies should: 1) ensure that terminated employees’ system
      access is removed; 2) ensure that system users are required to uniquely identify themselves to the system
      before being allowed to perform any functions; 3) ensure systems limit the number of log-on attempts; and 4)
      implement separation of duties controls such that a single individual cannot subvert a critical process.

      The GAO Federal Information Systems Control Audit Manual (FISCAM) requires that policies and procedures
      should be in place that prescribe who can authorize a system modification and how these authorizations
      are to be documented. The use of standardized change request forms helps ensure that requests are clearly
      communicated and that approvals are documented. The FEMA Information Resources Management Policy and
      Procedural Directive (FIRMPD) requires: 1) the suspension of a computer session (i.e., computer lockup) after
      ten minutes of inactivity; 2) a limit of three consecutive invalid log on attempts prior to lock out of computer
      users; 3) that agency system passwords be at least eight alphanumeric characters in length and should include at
      least one numeric character (0-9); and 4) that system passwords be changed at least once every 90 days.

We recommend that the OCGFC:

1.1       Review all OCGFC users who have access to PAS, lock any user accounts that are no longer
          needed, and ensure that a process is implemented to periodically review PAS users to ensure that
          only authorized individuals (e.g., current employees) have access to the system.

1.2       Ensure that the PAS Level 1 access controls are modified to create individual user login accounts
          and that the individual accounts have strong password controls.

1.3       Review PAS password parameters and modify them to:

          a. Lock user computers after some reasonable period of time (e.g., ten minutes) of inactivity;

          b. Lock out users after three invalid system log on attempts;

          c. Ensure the use of eight alphanumeric password characters, with at least one numeric character,
             as required by the FIRMPD; and

          d. Require that users change their system passwords every 90 days, at a minimum.

4.4       Establish a standard program change request form to document all PAS program changes, require
          prior documented management approval for all system changes, and perform a comprehensive
          review of PAS production programs to ensure that only management-approved programs are
          running in the production region.




      Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit                                        Page 5
APPENDIX A: FY 2002 COMMENTS AND RECOMMENDATIONS



         4.5     Remove or, at least, closely monitor and control the access of the PAS contract application
                 programmer from the production region of PAS and ensure a more detailed review of all claims
                 submitted by personnel with access to PAS, including contractor personnel.

   3. Mission Assignments and Interagency Agreements
         Mission assignments are interagency agreements that are provided in anticipation of, or in response
         to, a Presidential Disaster Declaration. FEMA issues mission assignments to other Federal agencies
         stipulating performance of a specific task and including information such as funding, managerial controls,
         and guidance. Mission assignments are administered by the Disaster Finance Branch and other types
         of interagency agreements are administered by the Financial and Acquisition Management Division
         (FAMD).

         During the course of our testwork, we noted the following improvements that could be made in the
         mission assignment and interagency agreement processes:

         1. Of a sample of 15 mission assignments entered into during FY 2002, the Lead Accountant either did
            not perform or did not document the review of the Request for Federal Assistance (RFA), as required,
            for three RFAs.

         2. Of a sample of 15 mission assignments closed during FY 2002, the FEMA project officer did not
            approve six RFAs issued to de-obligate the remaining funds.

         3. A periodic reconciliation between ProTrac and the Integrated Financial Management Information
            System (IFMIS) was not performed to ensure the accurate transfer of programmatic and financial data
            between the systems. ProTrac is the system used by FAMD to track the interagency agreements open
            at any point in time.

         4. No written policies and procedures exist for the monitoring and maintenance of interagency
            agreements.

         5. Of a sample of 15 interagency agreements entered into during FY 2002, one of the files selected could
            not be located.

         As a result of these issues, an increased risk exists that a mission assignment or interagency agreement
         will not be correctly processed and/or recorded.

         The Standards for Internal Control in the Federal Government issued by the GAO requires that internal
         controls be implemented and that such controls be documented, and the Standard Operating Procedure
         (SOP) entitled Processing Mission Assignments requires that RFAs be reviewed and approved.

         We recommend that FAMD:

         1.1     Remind all appropriate personnel of the policies related to the review and approval of RFAs for both
                 obligating and de-obligating actions and enforce such review requirements through a monitoring
                 program.



Page 6                       Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                       APPENDIX A: FY 2002 COMMENTS AND RECOMMENDATIONS



        1.2      Perform and document a periodic reconciliation between ProTrac and IFMIS. A supervisor should
                 review this reconciliation.

        1.3      Develop and implement agency-wide policies and procedures for the monitoring and close-out
                 of interagency agreements. These policies and procedures should include a standardized filing
                 system and documentation requirements to ensure the proper monitoring and maintenance of the
                 interagency agreements.

        1.4      Enhance document retention procedures to ensure that all interagency agreement files can be
                 located timely.

4.    Grants Management
        During the course of our testwork, we noted the following improvements that could be made to the grants
        management process:

        Region II

        1. At the end of each quarter, Region II personnel did not consistently reconcile in a timely manner
           total nondisaster grant obligations and disbursements between IFMIS and SmartLink.1 Instead, these
           reconciliations were performed upon receipt of the Financial Status Reports (FSR). However, States
           or Commonwealths were occasionally delinquent in submitting their quarterly FSRs, leading to a delay
           in the preparation of the related reconciliations. Although reconciling the FSR, IFMIS, and SmartLink
           together may seem more efficient, the delay in reconciling IFMIS and SmartLink could lead to errors
           not being identified and corrected timely.

        2. The second quarter reconciliations for two nondisaster grant programs were not performed correctly.
           In comparing total disbursements between IFMIS and SmartLink, not all disbursements made through
           the end of the quarter were considered.

        3. A tracking mechanism for ensuring the receipt of all nondisaster grant FSRs was not used.

        Region IX

        4. Grant files were not properly maintained for Region IX’s nondisaster grants. Several files that we
           requested could not be located, and overall the files lacked organization. For example, sections were
           not reserved for closeout documents, correspondence and reports were not in chronological order, and
           FSRs were missing.

        5. Region IX personnel were unable to provide evidence of any monitoring of cash-on-hand balances
           maintained by grantees of nondisaster grants.

        6. Region IX personnel did not perform any quarterly reconciliations between IFMIS, SmartLink, and the
           FSRs for the first, second, or third quarters of FY 2002 for the region’s nondisaster grant programs.


1
 SmartLink is a subsystem of the Department of Health and Human Services’ Payment Management System that FEMA uses
to disburse grants.


              Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit                      Page 7
APPENDIX A: FY 2002 COMMENTS AND RECOMMENDATIONS



         7. Region IX personnel did not track the receipt of FSRs related to nondisaster grants. As a result, certain
            requested FSRs could not be located.

         8. Region IX personnel did not coordinate with the Northridge Long-Term Recovery Area Office to
            correct differences noted in FY 2002 reconciliations for the Northridge Disaster (Disaster #1008)
            public assistance grant program .

         9. Disaster grant reconciliations between the amounts recorded as disbursements per the FSR and the
            amounts recorded in IFMIS and SmartLink were not completed properly.

         10. Region IX was unable to provide documentation to support the extension or requests for extension for
             8 of 13 Northridge hazard mitigation grant projects, likely as a result of poor record keeping.

         The following require that accounts be reconciled timely and recorded accurately: the Standards for
         Internal Control in the Federal Government issued by the GAO; SOP entitled Reconciling Grant
         Programs issued by FAMD in March 1999; and Statement of Federal Financial Accounting Standards
         (SFFAS) No. 1, Accounting for Selected Assets and Liabilities, paragraphs 57 and 59. Untimely
         reconciliations could lead to delays in identifying and correcting errors related to obligations and
         disbursements.

         We recommend that Region II and Region IX:

         4.1     Implement a method for tracking nondisaster grant FSRs to help ensure that all activity related to
                 nondisaster grants has been recorded properly.

         We recommend that Region II:

         4.2     Reconcile IFMIS and SmartLink promptly at the end of each quarter in accordance with the SOP,
                 Reconciling Grant Programs, regardless of when the related FSRs are received, to ensure that
                 nondisaster grants are properly recorded and de-obligated as funding is disbursed and received.

         4.3     When performing the quarterly reconciliations for all nondisaster grant programs, ensure that the
                 comparison of total disbursements between IFMIS and SmartLink consider all disbursements made
                 through the end of the quarter.

         We recommend that Region IX:

         4.4     Develop and implement a method for organizing, filing, and monitoring its grant files to ensure that
                 the files are complete, organized and available.

         4.5     Develop and implement policies and procedures to monitor cash-on-hand balances of nondisaster
                 grantees.

         4.6     Reconcile all grant programs on a quarterly basis in accordance with the SOP to ensure that funds
                 are de-obligated on a timely basis and that errors are resolved and corrected timely.




Page 8                       Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                      APPENDIX A: FY 2002 COMMENTS AND RECOMMENDATIONS



      4.7      Record the appropriate adjustments based on the FY 2002 reconciliations of Disaster #1008’s
               Public Assistance grant to ensure that this grant’s activities and balances are properly reflected in
               IFMIS.

      In addition, Region IX personnel should coordinate with the Northridge Long-Term Recovery Area Office
      in reconciling cumulative grant expenses and obligations for Disaster #1008 and correcting any identified
      variances on a quarterly basis.

      4.8      Develop and implement procedures to ensure that disaster grant reconciliations between the
               amounts recorded as disbursements per the FSR and the amounts recorded in IFMIS and SmartLink
               are completed properly.

      4.9      Develop and implement policies and procedures to ensure that appropriate documentation is on
               hand to support extensions of hazard mitigation grants.

5.   Budget Reprogrammings
      During the course of our testwork, we noted the following improvements that could be made related to
      budget reprogrammings:

      1. FEMA should review and, if necessary, update its policies and procedures for identifying, communicating,
         and recording reprogrammings to ensure the consistency and accuracy of their application.

      2. FEMA’s Congressional & Intergovernmental Affairs Division did not consistently follow its
         internal policies and procedures relating to the retention of correspondence with Congress for
         reprogrammings.

      The Standards for Internal Control in the Federal Government issued by the GAO states that internal
      controls include the policies, procedures, techniques, and mechanisms that enforce management’s
      directives.

      We recommend that:

      5.1      FAMD develop and implement written policies and procedures for the reprogramming process that
               include, but are not limited to, the following information:

               a. The definition and proper identification of reprogrammings;

               b. The individuals in FAMD who are responsible for performing reprogrammings; and

               c. The procedures to communicate with Congress and OMB to obtain approval prior to executing
                  reprogrammings when necessary.

      5.2      The Congressional & Intergovernmental Affairs Division enforce its procedures to document and
               retain all written and oral communication with Congress regarding reprogrammings.




            Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit                         Page 9
APPENDIX A: FY 2002 COMMENTS AND RECOMMENDATIONS



   6. Information Technology –Region II
          During the course of our testwork, we noted the following areas where information technology (IT)
          controls could be improved:
          1. We tested ten User Access Request (UAR) forms for the National Emergency Management Information
              System (NEMIS) and noted that one user approved her own UAR. Although this case appeared to
              be an exception, such a control weakness could lead to unauthorized access to critical data. Region
              II officials noted that the employee only granted herself print access, not system-processing access.
              However, under no circumstances should end users approve their own system access rights.

          2. The Region II Continuity of Operations Plan (COOP) had not been updated since September 2000. We
             noted that several of the points of contact in the COOP were not current, and critical regional personnel
             did not maintain copies of the COOP off-site. Consequently, critical personnel may not know who to
             contact or know all their responsibilities in the event of a disaster. Although Region II had a system and
             data backup process, a current and complete COOP is needed should a significant system or data center
             outage occur.

          OMB Circular A-130 requires that Federal agencies implement technical security controls in accordance
          with NIST guidance. NIST, in its September 1996 Generally Accepted Principles and Practices for
          Securing Information Technology Systems, guides that organizations should: 1) implement adequate
          separation of duties such that a single individual cannot subvert a critical process; and 2) keep
          contingency plans current and periodically test and revise contingency plans. A business continuity plan
          such as the COOP is a key component of an organization’s overall contingency planning strategy.

          We recommend that Region II:

          1.1     Remind all personnel that all system UARs must be approved by a manager who is not the access
                  requester.

          1.2     Continue with plans to work with the Office of National Preparedness to update the Region II
                  COOP.

   7. IFMIS
          Three FEMA contract employees and one FEMA employee share the same highly privileged IFMIS user
          account that is used to migrate IFMIS software code into production. We inquired with the Information
          Technology Services Directorate, Office of Cyber Security, and noted that during FY 2002, a waiver for
          this group account had not been approved by the FEMA Chief Information Security Officer (CISO), as
          required by the FIRMPD. However, subsequent to the completion of our audit, a waiver was approved by
          the CISO. Therefore, we have no recommendation at this time.




Page 10                       Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
APPENDIX B: SUMMARY STATUS OF COMMENTS REPORTED IN THE FY 2001 MANAGEMENT LETTER




         FY 2001         Location/      Audit Area       Description of Audit        Implementation      Rationale, If
        Management        Office                               Finding                   Status of     Recommendation
          Letter                                                                    Recommendations    Considered Open
      Recommendation                                                                 as of September
         Number.                                                                         30, 2002

           1.1            OCGFC       Cerro Grande     Lack of sufficient           Implemented and    N/A
                                      Administration   documentation for claims     closed
           1.2            OCGFC       Cerro Grande     Duplication of benefit       Implemented and    N/A
                                      Administration   searches                     closed
           1.3            OCGFC       Cerro Grande     Lack of detailed             Expanded and       N/A
                                      Administration   assessments of the EDP       included in the
                                                       controls supporting ACIS     FY 2002 internal
                                                       or the contractor’s data     control report
                                                       center in New Jersey


           1.4            OCGFC       Cerro Grande     ACIS user password           Not implemented    Condition cited
                                      Administration   history feature is not       and open           continues to exist.
                                                       activated


           1.5            OCGFC       Cerro Grande     Claims audited by the        Implemented and    N/A
                                      Administration   comptroller did not          closed
                                                       always represent 20
                                                       percent of claims to be
                                                       paid
           1.6            OCGFC       Cerro Grande     Significant time lag         Implemented and    N/A
                                      Administration   between determination        closed
                                                       and communication of
                                                       overpayments by OCGFC
                                                       to the Disaster Finance
                                                       Branch (DFB) and to the
                                                       claimant
           1.7            OCGFC       Cerro Grande     Two of 28 commitment         Implemented and    N/A
                                      Administration   forms (FEMA Form 40-1)       closed
                                                       tested were not approved
                                                       by both the program head
                                                       and the comptroller
           2.1             HRD        Human            Based on a sample, leave     Not implemented    Condition cited
                                      Resources        audits were either not       and open           continues to exist.
                                                       conducted at the end of
                                                       pay period 13 or the leave
                                                       audit performed was not
                                                       documented




                 Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit                           Page 11
APPENDIX B: SUMMARY STATUS OF COMMENTS REPORTED IN THE FY 2001 MANAGEMENT LETTER




          2.2   Headquarters/   Human          Electronic Data         Implemented and         N/A
                    HRD,        Resources      Processing controls for closed
                Headquarters/                  QuickTime system can be
                  ITSD and                     improved
                Headquarters/
                   FAMD
          3.1   Regions V and   Grants         Reconciling grant            Not implemented    Insufficient time
                     VI         Management     programs                     and open           to implement
                                                                                               recommendation
                                                                                               during FY 2002.

          3.2   Region V and    Grants         Recording of Project         Implemented and    N/A
                Headquarters/   Management     Impact expenses              closed
                   FAMD
          3.3   Headquarters/   Grants         Nine employees               Expanded and       N/A
                 ITSD and       Management     identified by information    included in the
                Headquarters/                  obtained from FEMA as        FY 2002 internal
                    HRD                        being terminated still had   control report
                                               active access to NEMIS
          4.1   Headquarters/ Reimbursable     Inadequate process for       Not implemented    Condition cited
                   FAMD       Agreements       determining accounts         and open           continues to exist.
                                               receivable related to
                                               individual reimbursable
                                               agreements
          4.2   Headquarters    Reimbursable   Advance balances exist       Implemented and    N/A
                 and DFB/       Agreements     for certain agreements       closed
                  FAMD                         with expired performance
                                               periods
          4.3   DFB/FAMD        Reimbursable   Improve control              Partially          N/A
                                Agreements     procedures over Fund 27      implemented
                                               reimbursable agreements      and closed; see
                                                                            related FY 2002
                                                                            recommendation
                                                                            #4.1




Page 12                 Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
APPENDIX B: SUMMARY STATUS OF COMMENTS REPORTED IN THE FY 2001 MANAGEMENT LETTER




          5.1          DFB/FAMD       Grants         Lack of written policies    Partially          Although written
                                      Management     and procedures for the      implemented and    procedures now
                                      - Accounts     periodic determination      open               exist, we did not
                                      Receivable     of the allowance for                           find evidence that
                                                     uncollectible accounts                         these procedures
                                                                                                    were fully
                                                                                                    implemented
                                                                                                    at September
                                                                                                    30, 2002. In
                                                                                                    addition,
                                                                                                    the written
                                                                                                    procedures do not
                                                                                                    include individual
                                                                                                    account analysis.
          6.1          Headquarters   Various        Double-counting of          Expanded and       N/A
                        and DFB/      - Accounts     certain invoices in the     included in the
                         FAMD         Payable        accounts payable accrual;   FY 2002 internal
                                      Accrual        certain expenses omitted    control report
                                                     from the accrual
          7.1          Headquarters   Property       Building improvements       Partially          Based on
                        and DFB/      Management     are depreciated over        implemented and    FAMD’s
                         FAMD                        20 years without            open               review of all
                                                     consideration of the                           Property Plant &
                                                     remaining useful life of                       Equipment as part
                                                     the related buildings                          of its nationwide
                                                                                                    equipment
                                                                                                    inventory, the
                                                                                                    balance for this
                                                                                                    asset class was
                                                                                                    corrected to
                                                                                                    remove erroneous
                                                                                                    items. However,
                                                                                                    no specific
                                                                                                    changes were
                                                                                                    made to FAMD’s
                                                                                                    depreciation
                                                                                                    methodology for
                                                                                                    this asset class.




                Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit                        Page 13
APPENDIX B: SUMMARY STATUS OF COMMENTS REPORTED IN THE FY 2001 MANAGEMENT LETTER




          8.1     Headquarters/    Performance   Lack of written policies     Implemented and       N/A
                       FAMD;       Measures      and procedures               closed
                   Emmitsburg/
                  United States
                   Fire Admin-
                      istration;
                  Headquarters/
                        ITSD;
                  Headquarters/
                  National Secu-
                   rity Division
          8.2     Headquarters/    Performance   FEMA’s performance           Implemented and       N/A
                       FAMD        Measures      reporting for FY 2001        closed
                                                 could be improved



          9.1     Headquarters/ Financial        Required risk assumed        Implemented and       N/A
                     FAMD       Reporting        information relating         closed
                                                 to the National Flood
                                                 Insurance Program
  10.1 and 10.2   Headquarters/ IT Controls      Joint Financial              Implemented and       N/A
                    FAMD,                        Management                   closed
                  Headquarters/                  Improvement Program
                     ITSD                        certified version of IFMIS
                                                 could not be verified
      11.1        Headquarters/ Laws and         Primary sources of           Not implemented       Condition cited
                     FAMD       Regulations      information for the          and open;             continues to exist.
                                                 annual assurance             noncompliance
                                                 statements of selected       with the Federal
                                                 FEMA managers were           Manager’s
                                                 audits conducted by          Financial Integrity
                                                 external parties and the     Act cited in FY
                                                 Office of the Inspector      2002 compliance
                                                 General                      report




Page 14                    Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                                APPENDIX C: ANALYSIS OF MANAGEMENT COMMENTS



We received written comments on the draft of our management letter from the following FEMA management
officials:

•   Director, Office of Cerro Grande Fire Claims (OCGFC)

•   Assistant Director/Chief Information Officer, Information Technology and Services Directorate (ITSD)

•   Acting Regional Director, Region II

•   Regional Director, Region IX

•   Acting Chief Financial Officer, Financial and Acquisition Management Division (FAMD)

These written comments are presented in Appendices D through H. FEMA officials generally expressed agreement
with the findings and recommendations of the draft management letter and indicated that in some cases, corrective
actions had been taken or were underway. In other instances, management presented other information and we
made changes to the report as appropriate or have provided our analysis of those comments as follows:

OCGFC
Regarding our recommendation 2.1 to lock any Payment Approval System (PAS) user accounts that are no longer
needed, OCGFC instead plans to delete these accounts. For future issuances of user accounts, OCGFC plans to
issue them only on a short-term, interim basis, and to review and validate all user accounts on a quarterly basis to
ensure that unneeded users accounts are removed. OCGFC also plans to remove user accounts for any employees
immediately following their departure.

Regarding our recommendations 2.3(a) through 2.3(d) to modify PAS password parameters, OCGFC states that they
do not plan to implement recommendation 2.3(a), but do plan on implementing recommendations 2.3(b), 2.3(c),
and 2.3(d). Recommendation 2.3(a) calls for locking user computers after ten minutes of inactivity. However,
OCGFC states that implementing this recommendation would require “some expense and system downtime” and
would, therefore, not be practical to perform. We believe that our recommendation 2.3(a) could be implemented
even without extensive modifications to the PAS software. For example, the individual personal computer station
can be easily modified to include password protected screen savers that would restrict access by any unauthorized
user, yet allow the user to perform all the necessary offline activities stated in OCGFC’s response. We plan to,
therefore, continue recommending that OCGFC revisit their response and determine some practical implementation
of our recommendation 2.3(a).

Regarding our recommendation 2.5 to remove, or closely monitor and control, the access of the PAS contract
application programmer from the production region of PAS, OCGFC states that they will continue to monitor
all contractor activity and ensure the required review and approval of all PAS payment activity. OCGFC states,
furthermore, that based on their oversight of the contractor’s activities, they do not plan to terminate this contractor.
Our recommendation did not call for this contractor to be terminated, but did call for close monitoring and control
of his activities. As long as OCGFC continues to implement this part of our recommendation, we do not disagree
with OCGFC’s decision to retain this contractor.




             Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit                            Page 15
APPENDIX C: ANALYSIS OF MANAGEMENT COMMENTS



FAMD

Regarding our recommendation 5.1 to review and update their policies and procedures guidance related to budget
reprogrammings, our initial recommendation was that FAMD should prepare such guidance. However, FAMD
provided their most current guidance related to such activity and we, therefore, modified our initial recommendation
to instead suggest that FAMD review and, if necessary, update their current guidance.




Page 16                     Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                       APPENDIX D: MANAGEMENT COMMENTS - FAMD




Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit   Page 17
APPENDIX E: MANAGEMENT COMMENTS - ITSD




Page 18           Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                       APPENDIX F: MANAGEMENT COMMENTS - OGFC




Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit   Page 19
APPENDIX F: MANAGEMENT COMMENTS - OGFC




Page 20          Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                       APPENDIX F: MANAGEMENT COMMENTS - OGFC




Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit   Page 21
APPENDIX F: MANAGEMENT COMMENTS - OGFC




Page 22          Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                 APPENDIX G: MANAGEMENT COMMENTS - REGION II




Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit   Page 23
APPENDIX G: MANAGEMENT COMMENTS - REGION II




Page 24           Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                 APPENDIX G: MANAGEMENT COMMENTS - REGION II




Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit   Page 25
APPENDIX H: MANAGEMENT COMMENTS - REGION IX




Page 26           Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                APPENDIX H: MANAGEMENT COMMENTS - REGION IX




Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit   Page 27
APPENDIX H: MANAGEMENT COMMENTS - REGION IX




Page 28           Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
                                       APPENDIX I; OIG CONTRIBUTORS TO THIS REPORT




Sue Schwendiman, Director
Vonna Holbrook, Audit Manager
Charles Egu, Auditor




   Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit   Page 29
Page 30   Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
APPENDIX J: REPORT DISTRIBUTION




     Michael D. Brown
     Under Secretary
     Emergency Preparedness and Response

     Patrick Rhode
     Chief of Staff
     Emergency Preparedness and Response

     Matt Jadacki
     Acting Chief Financial Officer
     Financial and Acquisition Management Division

     Barry C. West
     Chief Information Officer
     Information Technology and Services Directorate

     Lea Ann McBride
     Acting Director
     Office of Public Affairs

     Daniel A. Craig
     Director
     Recovery Division

     Douglas G. Fehrer
     Director
     Human Resources Division

     Joseph Picciano
     Acting Regional Director
     Region II

     Jeff Griffin
     Regional Director
     Region IX




                 Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit   Page 31
Page 32   Management Letter for FEMA’s Fiscal Year 2002 Financial Statement Audit
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at (202) 254-
4100, fax your request to (202) 254-4285, or visit the OIG web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or
noncriminal misconduct relative to department programs or operations, call the OIG Hotline at
1-800-323-8603; write to Department of Homeland Security, Washington, DC 20528, Attn: Office
of Inspector General, Investigations Division – Hotline. The OIG seeks to protect the identity of
each writer and caller.
